                             Office of the Inspector General

June 18, 1999

John R. Dyer
Principal Deputy Commissioner


Acting Inspector General


The Social Security Administration’s Effectiveness in Tracking Magnetic Media Wage
Reports Returned to Employers


The attached final report presents the results of our audit of the Social Security
Administration’s (SSA) effectiveness in tracking magnetic media wage reports returned
to employers (A-03-96-31003). The objective of our review was to evaluate SSA’s
effectiveness in tracking reports that must be returned to employers (or “submitters”
such as payroll processing firms) for correction and resubmission when SSA is unable
to process them.

Based on our review of a sample of 200 returned submissions, SSA’s tracking of
rejected magnetic media submissions is adequate. Many employers, however, were
untimely in correcting and resubmitting their wage reports to SSA. SSA followed up in
every case in our sample where employers were late or did not resubmit corrected
wage reports as required. Therefore, this report contains no recommendations.

You may wish to comment on the final report. If you choose to offer comments, please
provide them within the next 60 days. If you wish to discuss the final report, please call
me or have your staff contact Daniel R. Devlin, Acting Assistant Inspector General for
Audit, at (410) 965-9700.




                                             James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



     THE SOCIAL SECURITY
      ADMINISTRATION’S
      EFFECTIVENESS IN
     TRACKING MAGNETIC
    MEDIA WAGE REPORTS
   RETURNED TO EMPLOYERS
     June 1999   A-03-96-31003




AUDIT REPORT

                   E X E C U TI V E S U M M AR Y 


OBJECTIVE

The objective of our review was to evaluate the Social Security Administration’s (SSA)
effectiveness in tracking magnetic media wage reports that must be returned to
employers (or “submitters” such as payroll processing firms) for correction and
resubmission when SSA is unable to process them.

BACKGROUND

SSA requires employers with 250 or more employees to report annual wages on
magnetic media (tape, diskette or cartridge). SSA assigns a control number to each
magnetic media wage report, which stays with it throughout all processing steps.
“Acceptable” wage reports (those that do not exceed established thresholds for the
type and number of errors) continue through the system and are posted to the Master
Earnings File or the suspense file. 1

If a wage report submission cannot be read, is damaged or contains certain types or
numbers of errors, SSA returns the wage report to the employer with an explanation of
the problem. SSA has established time frames to maintain control over rejected wage
reports—14 days for the employer to initially acknowledge the rejection and 45 days for
the employer to submit a corrected report. If SSA does not receive the corrected wage
report, the Agency automatically sends follow-up notices and may ultimately forward
the case to the Internal Revenue Service to assess late penalties.

RESULTS OF REVIEW

SSA has an effective system for tracking magnetic media wage reports that are
returned to employers because they contain errors. Common reasons cited by SSA for
rejecting submissions above the established thresholds include “unreadable” reports,
use of the incorrect tax year and reports with Social Security numbers and names that
do not match SSA’s master file.




1
  For Tax Year 1995 and prior, SSA would accept submissions if as few as 10 percent of the
names/Social Security numbers were valid. SSA increased the acceptance threshold to 30 percent for
1996 and to 50 percent for 1997 (with a maximum of 5,000 errors allowed).


                                                  i
CONCLUSIONS

Based on our review of a judgmental sample of 200 returned submissions, SSA’s
tracking of rejected magnetic media wage submissions is adequate. Therefore, this
report contains no recommendations.




                                          ii
                         TAB L E O F C O N TE N TS

                                                                                                                  Page

EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 4


    SSA CONSISTENTLY TRACKED REJECTED MAGNETIC MEDIA

    WAGE REPORTS ............................................................................................. 4


    �    SSA Is Considering Changes to Rejection Notice Process ......................... 5


    MANY EMPLOYERS UNTIMELY IN RESUBMITTING MAGNETIC

    MEDIA WAGE REPORTS................................................................................. 6


    SSA’s TIMELINESS IN PROCESSING MAGNETIC MEDIA WAGE

    REPORTS ......................................................................................................... 6


CONCLUSIONS AND RECOMMENDATIONS....................................................... 8


APPENDICES
APPENDIX A – Major Contributors to This Report
APPENDIX B – SSA Organizational Chart
                            I N TR O D U C TI O N


OBJECTIVE

The objective of our review was to evaluate the Social Security Administration’s (SSA)
effectiveness in tracking magnetic media wage reports that must be returned to
employers (or “submitters” such as payroll processing firms) for correction and
resubmission when SSA is unable to process them.

BACKGROUND

Employers send annual wage report (AWR) submissions2 on tape, diskette or cartridge
to SSA’s Office of Central Operations (OCO) in Baltimore, Maryland, for processing.3
SSA assigns a tape library control number (TLCN)4 to each submission and attempts to
read the magnetic media submission, a process known as Initial Magnetic Read (IMR).

IMR determines whether the submission is machine-readable and correctly formatted.
If the submission is correctly formatted, the individual wage reports in the submission
go through a series of batch processes; the batch processes evaluate the wage reports
and decide their disposition based on the type and number of errors detected.
Acceptable wage reports continue through SSA’s earnings establishment system and
eventually are posted to the Master Earnings File (MEF) or the suspense file (in cases
where the reported name and Social Security number [SSN] do not match). Even if an
overall submission must be returned, SSA generally processes those AWRs that have
no errors or only insignificant ones.

In general, SSA rejects AWR submissions if either of two conditions exist:

    •	   SSAis unable to process the submission through IMR. This can occur when the
         submission media is partly or completely unreadable, damaged or incompatible
         with SSA’s equipment.

    •	 The submission passes IMR, but contains certain types or numbers of errors.
       This can occur if the submission contains one or more “critical” errors that SSA
       can neither process nor correct. For example, these conditions can exist when
       the percentage of invalid names and/or SSNs is above certain thresholds, or

2
  An individual submission can consist of one or more AWRs from one or more employers.
3
  SSA received 103,000 magnetic media submissions in 1996; of these, some 11,490 submissions
(about 11 percent) were returned to the submitters.
4
  TLCN is SSA’s control mechanism over all AWR submissions. The same TLCN is assigned
throughout all processing steps, including any resubmissions due to submission error.


                                                1

      when 21 or more AWRs in an individual submission have “report correction”
      errors.

Business Process for Rejected AWR Submissions

SSA sends a rejection notice to the employer explaining the problem with the
submission and asks the employer to call SSA to confirm receipt. If the employer does
not call within 14 days, the system electronically alerts the magnetic media technician
to make up to three attempts to contact the employer by telephone. In either scenario,
SSA documents all contacts with employers, advises them about the needed
correction, offers assistance, establishes the due date for resubmitting the AWRs, and
advises on the consequence of missing due dates—which includes penalties that can
be assessed by the Internal Revenue Service (IRS).

If SSA does not receive the resubmittal within 65 days of the date of the reject notice,
SSA automatically sends a first follow-up notice to the employer. If SSA does not
receive the resubmittal within 124 days of the date of the reject notice, SSA
automatically sends a second (final) follow-up notice to the employer.

SSA/IRS Reconciliation

If the employer does not return a rejected wage report to SSA, it is recognized in the
reconciliation process. As SSA processes employer wage reports, it maintains a record
of total Social Security and Medicare wages and tips processed for each employer.
These totals are then compared with the totals from tax payments filed by the employer
with the IRS on the Employers Quarterly Federal Tax Return (Form 941).

A wage report not returned is classified as "missing”—meaning the IRS has Form 941
data but SSA has not processed W-2 data. SSA sends an initial letter and a follow-up
letter, if necessary, requesting the wage reports. If the employer does not respond to
the two requests, SSA forwards the case to IRS to assess late penalties.

SCOPE AND METHODOLOGY

Our objective was to evaluate SSA’s effectiveness in tracking magnetic media wage
reports that must be returned to employers for correction and resubmission when SSA
is unable to process them.

To accomplish our objective, we:

   •	 obtained and reviewed the written procedures at OCO over tracking returned
      magnetic media wage reports;

   •	 from the universe of 11,490 magnetic media TLCNs received in 1996 that SSA
      returned to submitters, selected and tracked a judgmental sample of 200 to


                                            2

       determine whether they were processed and whether reports not returned to
       SSA have been identified through the Modernized Earnings AWR Online Screen
       Process;

   •	 reviewed applicable sections of SSA’s Program Operations Manual System,
      Modernized Systems Operations Manual, and other material pertaining to
      magnetic media reports returned to employers;

   •   observed the receipt and processing of magnetic media submissions at OCO;

   •	 interviewed officials at OCO in the Division of Employer Services and the Center
      for Systems and Logistics Support;

   •   interviewed officials at the Office of Systems Requirements; and

   •	 summarized SSA’s reasons for rejecting magnetic media wage reports returned
      to employers for correction and resubmission.

We used a judgmental sample of 200 to accomplish our objective.

Further, we analyzed the universe of 11,490 returned magnetic media TLCNs to
determine the number of times SSA returned submissions to the employers for
correction and resubmission in order to verify timeliness. In addition, we selected a
separate, random sample of 50 TLCNs to review the employers’ timeliness in returning
the corrected submissions to SSA. We also used this sample to analyze SSA’s
timeliness in processing the magnetic media wage reports returned to employers for
correction and resubmission.

We performed our review at OCO and Headquarters in Baltimore, Maryland, between
August 1996 and March 1998. We conducted our review in accordance with generally
accepted government auditing standards.




                                           3

                    R E S U L TS O F R E V I E W 


SSA CONSISTENTLY TRACKED REJECTED MAGNETIC MEDIA WAGE
REPORTS

SSA returned 11,490 magnetic media submissions to employers in Calendar Year5
(CY) 1996. SSA was able to process 8,948 TLCNs (77.9 percent) after the initial
resubmission. SSA returned the remaining 2,542 submissions (22.1 percent) more
than once to submitters for correction and resubmission. A submission can be returned
additional times if, for example, the magnetic media is damaged. In such a case, SSA
notifies the employer they must resubmit the wage report because the disk was
unreadable. If the wage report still contains errors when it is resubmitted, SSA returns
it again to the employer to be corrected. This continues until the wage report can be
processed to “complete” status through the system. Common reasons cited by SSA for
rejecting submissions are “unreadable” reports and the use of the incorrect tax year
(TY). SSA also rejected magnetic media submissions above established thresholds
when the SSNs or names in a report did not match the SSNs and names on SSA’s
master file (referred to as the Numident).

The following table displays the number of times SSA returned submissions for
correction and resubmission.

           Table 1: Frequency of Processing Returned Submissions
                    (CY 1996)
                   Number of                 Number                 Percent
                 Resubmissions              of TLCNs               of TLCNs
                      1                        8,948                  77.9
                      2                        1,618                  14.1
                      3                          594                    5.2
                      4                          211                    1.8
                      5                           76                   0.7
                      6                           28                   0.2
                      7                           11                   0.1
                      8                            4                    0.0
                     Total                   11,490                    100




5
  Magnetic media wage reports processed in Calendar Year 1996 mainly contain Tax Year 1995 data,
but some of the submissions are from earlier years.


                                                4
We reviewed the status of a judgmental sample of 200 returned submissions as of
March 1998. Of the 200 TLCNs reviewed: 158 were resubmitted and successfully
processed; 40 were deleted from the returned submission list because they were
controlled under another TLCN, returned to SSA on paper, or sent in error; and 2 were
not returned (discussed further below). (See Table 2.)

      Table 2: SSA’s Tracking of Returned Submissions in the Office of the
               Inspector General Sample
                                                      Number of
                     Status                            TLCNs              Percentage
         Resubmitted and Processed                      158                  79.0%
         Deleted                                         40                  20.0%
         Not Returned—Referred to IRS                     1                   0.5%
         Unable to Process                                1                   0.5%
         Total                                          200                   100%

Fifteen employers initially did not return submissions within 65 days of the reject notice.
SSA sent follow-up notices to the employers in all cases. Eleven of those submissions
were not returned within 124 days. Again, in all cases, SSA attempted to follow up on
the employers who were late in returning their corrected wage reports.

Two of the original 200 returned submissions in our sample remained unprocessed
despite several attempts by SSA and/or the employers. Of the two submissions, we
were able to track one through the Modernized IRS/SSA Reconciliation System. For
this submission, SSA sent a reconciliation notice in February 1997 and a follow-up
notice 120 days later; when the employer still failed to respond, SSA referred it to IRS.
SSA’s actions were in accordance with the Agency’s policy. In the other case, the
employer submitted an incorrect Employer Identification Number and no name.
Without either piece of identifying information, SSA was unable to process the
submission. Because this submission was for TY 1993, SSA also was unable to
identify it through the IRS/SSA Reconciliation System.6

SSA Is Considering Changes to the Rejection Notice Process

When there is a submission error, SSA sends a rejection notice explaining the problem
with the submission to employers. However, employers are notified of only the first five
critical and report correction errors on the submission, even if the submission has more
than five errors. This practice was outside the scope of our audit, and thus we did not
specifically review it. We observed, however, that the notice has a toll-free number for
the submitter to call to obtain all of the error occurrences from a SSA technician.



6
  SSA put the Modernized IRS/SSA Reconciliation System in place in 1995, in part because of
recognized problems in tracking submissions.


                                                 5

SSA’s Target Notice Architecture (TNA) determines the number of errors that are
disclosed in the return notice to the employer. SSA plans to review the TNA in the SSA
Earnings 5-Year Plan to determine the possibility of notifying the employer of all errors
in a submission, rather than only the first five errors.

MANY EMPLOYERS UNTIMELY IN RESUBMITTING MAGNETIC MEDIA
WAGE REPORTS

Because of the timeliness issue identified in our original sample of 200 submissions,
we reviewed a separate random sample of 50 TLCNs to measure employers’ timeliness
in resubmitting their wage reports. Fifty-eight percent of the sampled submissions were
returned within SSA’s requirement of 45 days. Thus, 42.0 percent of the magnetic
media employers sampled did not comply with SSA’s timeliness requirement. These
delays required SSA to repeatedly follow up with employers and delayed posting
earnings to individuals’ records in the MEF. As discussed above, SSA consistently
tracked and followed up on overdue resubmissions.

Employers took an average of 46 days to return their rejected submissions to SSA.
However, their individual timeliness varied widely, from 4 to 355 days. The following
table displays the employers’ timeliness in resubmitting the magnetic media wage
reports for processing.

        Table 3: Number of Days for Submitters to Return Reports to SSA
                                        Number of
              Number of Days             TLCNs               Percentage
           0-45                            29                   58.0%
           46-65                            8                   16.0%
           66-120                           3                    6.0%
           over 120                        10                   20.0%
           Total                           50                    100%

SSA’s TIMELINESS IN PROCESSING MAGNETIC MEDIA WAGE
REPORTS

SSA’s instruction, “Magnetic Media Reporting, Submitting Annual W-2 Copy A
Information To The Social Security Administration (TIB-4),” tells employers that SSA
ordinarily should be able to process properly prepared magnetic media files within
120 days after receipt. We used the same random sample of 50 TLCNs to determine
SSA’s success in meeting its processing goal. SSA processed 82.0 percent of the
returned magnetic media wage reports in our sample within its goal of 120 days.
(See Table 4.)




                                            6

          Table 4: 	Time Required for SSA to Process Resubmitted
                    Reports
                Number of             Number of
                   Days                TLCNs               Percentage
            0-120 days                    41                  82.0%
            over 121 days                  9                  18.0%
            Total                         50                   100%

The average time SSA took from receipt of the submission to posting was 54 days.
Processing time for individual submissions varied from the day of receipt to 373 days,
depending on the volume of submissions to be processed and the conditions
encountered during processing. (Files with improper format or technical problems may
be delayed.) In addition, SSA officials told us their operating procedure is to process
submissions with large numbers of individual W-2s first, to maximize posting individual
employee wages to their records in the MEF. From that perspective, SSA typically
posts 97.0 to 98.0 percent of wage reports within 9 months after the end of the TY, as
required for making actuarial projections.




                                           7

         CONCLUSIONS AND RECOMMENDATIONS


SSA adequately tracked rejected magnetic media submissions, based on our review of
a judgmental sample of 200 cases.

When SSA sends a rejection notice explaining a problem with a submission to an
employer, the employer is notified of only the first five critical and report correction
errors on the submission, even if the submission has more than five errors. Although
we did not specifically review this area, we saw no indication that this practice results in
additional rejections. Nevertheless, SSA’s plan to review the rejection notices in the
SSA Earnings 5-Year Plan to determine the possibility of notifying the employer of all
errors in a submission rather than only the first five appears reasonable.




                                             8

APPENDICES

                                                                               APPENDIX A



    MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

  Roger Normand, Director, Northern Program Audit Division

  Thomas Hubbs, Deputy Director

  Mary Dougherty, Auditor in Charge

  Walter Mingo, Auditor

  Patrick Kennedy, Senior Auditor, Technical Services

  Cheryl Robinson, Writer-Editor, Technical Services


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist, Pamela Kilgallon, at (410) 966-5998. Refer to Common
Identification Number A-03-96-31003.
                            APPENDIX B



SSA ORGANIZATIONAL CHART

